APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the First District Court of Appeal
State of Florida (June 16, 2020) ........................ 1a
Order Denying the Defendant’s Motion to Correct
Sentencing Error Pursuant to
Rule 3.800(B)(1) (March 20, 2019) ..................... 2a
Order of Sex Offender Probation (Attachment 1)
(February 19, 2019) ............................................ 6a
Information (Attachment 2)
(February 12, 2018) .......................................... 17a
Statutory Provisions Involved ................................ 26a

App.1a
OPINION OF THE FIRST DISTRICT
COURT OF APPEAL STATE OF FLORIDA
(JUNE 16, 2020)
FIRST DISTRICT COURT OF APPEAL
STATE OF FLORIDA
________________________
BRANDAN A. MACK,

Appellant,
v.
STATE OF FLORIDA,

Appellee.
________________________
No. 1D19-1383
On appeal from the Circuit Court for
Walton County, Kelvin C. Wells, Judge.
PER CURIAM.
AFFIRMED.
WOLF, MAKAR, and NORDBY, JJ., concur.
__________________________________________
NOT FINAL UNTIL DISPOSITION OF ANY
TIMELY AND AUTHORIZED MOTION UNDER

FLA. R. APP. P. 9.330 OR 9.331.
__________________________________________

App.2a
ORDER DENYING THE DEFENDANT’S
MOTION TO CORRECT SENTENCING
ERROR PURSUANT TO RULE 3.800(B)(1)
(MARCH 20, 2019)
IN THE CIRCUIT COURT OF THE
FIRST JUDICIAL CIRCUIT IN AND FOR
WALTON COUNTY, FLORIDA
________________________
STATE OF FLORIDA,
v.
BRANDAN A. MACK,

Defendant.
________________________
Case No. 2018-CF-000098
Before: Kelvin C. WELLS, Circuit Judge.
THIS CAUSE comes before the court for review
upon the defendant’s Motion to Correct Sentencing
Error Pursuant to Rule 3.800(b)(1), electronically filed
by defendant’s counsel on March 20, 2019, pursuant
to rule 3.800(b)(1), Florida Rules of Criminal Procedure. Having reviewed the instant motion, record,
and relevant legal authority, the court finds and
determines that the instant motion should be denied.
On February 19, 2019, the defendant entered a
nolo contendere plea to eleven counts of possess,
control, or view a depiction of sexual conduct by a child
(counts 1 through 11) and one count of transmitting a

App.3a
visual depiction of sexual conduct of a minor by use
of a computer (count 12). The defendant was sentenced
to four years of probation as a youthful offender
concurrent on each count. The defendant was classified
as a sexual offender. The defendant has not filed a
notice of appeal.
In the instant motion, the defendant alleges he
should not be classified as a sexual offender or be subject to the registration requirements of section 943.
0435, Florida Statutes, because he was sentenced as a
youthful offender pursuant to chapter 958, Florida
Statutes. In particular, the defendant argues chapter
958 is a separate sentencing scheme for defendants
to whom the Act applies. The defendant also alleges
section 943.0435 does not include any express language that supersedes the provisions of chapter 958.
As a result, the defendant argues the mandatory
sentencing provisions of section 943.0435 should not
be imposed on a defendant who is sentenced as a
youthful offender under chapter 958. Additionally,
the defendant raises federal constitutional arguments
regarding applying sexual offender registration requirements to juvenile offenders.
The defendant is not entitled to relief. The defendant does not cite, and the court’s independent review
does not indicate, any Florida case law that is directly
on point. However, a review of the relevant statutes
refutes the defendant’s claim. Section 943.0435(1)
(h)(1)(a)(I-II) provides a:
“sexual offender” means a person who . . . has
been convicted of committing, or attempting,
soliciting, or conspiring to commit, any of the
criminal offenses proscribed in the following
statutes in this state or similar offenses in

App.4a
another jurisdiction: . . . s. 827.071; . . . s. 847.
0135; . . . and has been released on or after
October 1, 1997, from the sanction imposed
for any conviction of an offense described in
sub-sub-subparagraph (I).
Section 943.0436(2)(a) is also applicable and states:
If a person meets the criteria in chapter 775
for designation as a sexual predator or meets
the criteria in s. 943.0435 . . . for classification
as a sexual offender, the court may not enter
an order, for the purpose of approving a plea
agreement or for any other reason, which:
exempts a person who meets the criteria for
designation as a sexual predator or classification as a sexual offender from such designation or classification, or exempts such person
from the requirements for registration or
community and public notification imposed
upon sexual predators and sexual offenders.
In the instant case, the defendant was convicted
of committing eleven counts of an offense included in
section 827.071 and one count of an offense included
in section 847.0135.1 These convictions qualify the
defendant for classification as a sexual offender pursuant to section 943.0435. The plain language of the
above authority reflects the court has a duty and is
required to classify the defendant as a sexual offender.
Considering such information, the court may not
exempt the defendant from the registration requirements of section 943.0435. In other words, the court is
required to classify the defendant as a sexual offender
1 Order Sex Offender Prob., March 12, 2019 (Attach. 1); Information, Feb. 12, 2018 (Attach. 2).

App.5a
even though he was sentenced as a youthful offender
pursuant to chapter 958. Therefore, the instant motion
is denied.
Accordingly, it is hereby ORDERED and ADJUDGED
that the defendant’s Motion to Correct Sentencing Error
Pursuant to Rule 3.800(b)(1), electronically filed by the
defendant’s counsel on March 20, 2019, is DENIED.
DONE and ORDERED in Chambers at DeFuniak

Springs, Walton County, Florida.
/s/ Kelvin C. Wells
Circuit Judge

App.6a
ORDER OF SEX OFFENDER PROBATION
(ATTACHMENT 1)
(FEBRUARY 19, 2019)
IN THE FIRST JUDICIAL
CIRCUIT COURT, IN AND FOR
WALTON COUNTY
________________________
STATE OF FLORIDA,
v.
BRANDAN ANDREW MACK,

Defendant.
________________________
Case No. 18-CF-098
DC No. P70306
Before: Kelvin C. WELLS, Circuit Judge.
This cause coming before the Court to be heard,
and you, the defendant, being now present before the
court, and you having
 entered a plea of nolo contendere to
Count 01

POSSESS CONTROL VIEW DEPICTION
CHILD SEX CONDUCT X11

Count 02

POSSESS COMPILE COMPUTER
CHILD PORNOGRAPHY

App.7a
Section 2: Order Withholding Adjudication
Now, therefore, it is ordered and adjudged that
the adjudication of guilt is hereby withheld and that
you be placed on Probation for a period of four (4)
years, Youthful Offender, all counts concurrent under
the supervision of the Department of Corrections,
subject to Florida law.
IT IS FURTHER ORDERED that you shall comply
with the following standard conditions of supervision
as provided by Florida law:
(1) You will report to the probation officer as directed.
(2) You will pay the State of Florida the amount
of $40.00 per month, as well as 4% surcharge, toward
the cost of your supervision in accordance with s.
948.09, F.S., unless otherwise exempted in compliance
with Florida Statutes.
(3) You will remain in a specified place. You will
not change your residence or employment or leave the
county of your residence without first procuring the
consent of your officer.
(4) You will not possess, carry or own any firearm.
You will not possess, carry, or own any weapon
without first procuring the consent of your officer.
(5) You will live without violating any law. A
conviction in a court of law is not necessary for such
a violation of law to constitute a violation of your
probation, community control, or any other form of
court ordered supervision.
(6) You will not associate with any person engaged
in any criminal activity.

App.8a
(7) You will not use intoxicants to excess or possess any drugs or narcotics unless prescribed by a
physician. Nor will you visit places where intoxicants,
drugs or other dangerous substances are unlawfully
sold, dispensed or used.
(8) You will work diligently at a lawful occupation,
advise your employer of your probation status, and
support any dependents to the best of your ability, as
directed by your officer.
(9) You will promptly and truthfully answer all
inquiries directed to you by the court or the officer,
and allow your officer to visit in your home, at your
employment site or elsewhere, and you will comply
with all instructions your officer may give you.
(10) You will pay restitution, court costs, and/or
fees in accordance with special conditions imposed or
in accordance with the attached orders.
(11) You will submit to random testing as directed
by your officer or the professional staff of the treatment
center where you are receiving treatment to determine
the presence or use of alcohol or controlled substances.
(12) You will submit a DNA sample, as directed
by your officer, for DNA analysis as prescribed in ss.
943.325 and 948.014, F.S.
(13) You will submit to the taking of a digitized
photograph by the department. This photograph may
be displayed on the department’s website while you
are on supervision, unless exempt from disclosure
due to requirements of s. 119.07, F.S.
(14) You will report in person within 72 hours of
your release from incarceration to the probation office
in ____ County, Florida, unless otherwise instructed by

App.9a
the court or department. (This condition applies only
if section 3 on the previous page is checked.) Otherwise,
you must report immediately to the probation office
located at ____.
SPECIAL CONDITIONS
1. You must undergo a Psycho-sexual evaluation
and, if treatment is deemed necessary, you must
successfully complete the treatment, and be responsible
for the payment of any costs incurred while receiving
said evaluation and treatment, unless waived by the
court.
Additional instructions ordered: _____
3. You will be required to pay for drug testing
unless exempt by the court.
13. You will have no contact (direct or indirect
with minors under 18 years of age during the period
of supervision.
28. Other:
You are sentenced as a Youthful Offender
29. Other:
You are designated as a Sexual Offender.
AND, IF PLACED ON PROBATION OR COMMUNITY CONTROL FOR A SEX OFFENSE PROVIDED IN CHAPTER 794, s. 800.04, s. 827.071, s.
847.0135(5), or s. 847.0145, COMMITTED ON OR.
AFTER OCTOBER 1, 1995 YOU WILL COMPLY WITH
THE FOLLOWING STANDARD SEX OFFENDER
CONDITIONS, IN ADDITION TO THE STANDARD
CONDITIONS LISTED ABOVE AND ANY OTHER
SPECIAL CONDITIONS ORDERED BY THE COURT:

App.10a
(15) A mandatory curfew from 10 p.m. to 6 a.m.
The court may designate another 8-hour period if the
offender’s employment precludes the above specified
time, and the alternative is recommended by the
Department of Corrections. If the court determines
that imposing a curfew would endanger the victim,
the court may consider alternative sanctions.
(16) If the victim was under the age of 18, a prohibition on living within 1,000 feet of a school, child
care facility, park, playground, or other place where
children regularly congregate, as prescribed by the
court. The 1,000-foot distance shall be measured in a
straight line from the offender’s place of residence to
the nearest boundary line of the school, child care
facility, park, playground, or other place where children
congregate. The distance may not be measured by a
pedestrian route or automobile route.
(17) Active participation in and successful completion of a sex offender treatment program with qualified
practitioners specifically trained to treat sex offenders,
at the offender’s own expense. If a qualified practitioner
is not available within a 50-mile radius of the offender’s residence, the offender shall participate in other
appropriate therapy.
(18) A prohibition on any contact with the victim,
directly or indirectly, including through a third person,
unless approved by the victim, a qualified practitioner
in the sexual offender treatment program, and the
sentencing court.
(19) If the victim was under the age of 18, a
prohibition on contact with a child under the age of
18 except as provided in this paragraph. The court may
approve supervised contact with a child under the

App.11a
age of 18 if the approval is based upon a recommendation for contact issued by a qualified practitioner
who is basing the recommendation on a risk assessment. Further, the sex offender must be currently
enrolled in or have successfully completed a sex
offender therapy program. The court may not grant
supervised contact with a child if the contact is not
recommended by a qualified practitioner and may
deny supervised contact with a child at any time.
(20) If the victim was under age 18, a prohibition
on working for pay or as a volunteer at any place where
children regularly congregate, including, but not
limited to any school, child care facilities, park, playground, pet store, library, zoo, theme park, or mall.
(21) Unless otherwise indicated in the treatment
plan provided by a qualified practitioner in the sexual
offender treatment program, a prohibition on viewing,
accessing, owning, or possessing any obscene, pornographic, or sexually stimulating visual or auditory
material, including telephone, electronic media, computer programs, or computer services that are relevant
to the offender’s deviant behavior pattern.
(22) A requirement that the offender submit a
DNA sample to the Florida Department of Law
Enforcement to be registered with the DNA data bank.
(23) A requirement that the offender make restitution to the victim, as ordered by the court under s.
775.089, for all necessary medical and related professional services relating to physical, psychiatric, and
psychological care.
(24) Submission to a warrantless search by the
community control or probation officer of the offender’s
person, residence, or vehicle.

App.12a
EFFECTIVE FOR PROBATIONER OR COMMUNITY CONTROLLEE WHOSE CRIME WAS COMMITTED ON OR AFTER OCTOBER 1, 1997, AND
WHO IS PLACED ON COMMUNITY CONTROL OR
SEX OFFENDER PROBATION FOR A VIOLATION
OF CHAPTER 794, s. 800.04, s. 827.071, s. 847.0135(5)
or s. 847.0145, IN ADDITION TO ANY OTHER PROVISION OF THIS SECTION, YOU MUST COMPLY
WITH THE FOLLOWING CONDITIONS OF SUPERVISION:
(25) As part of a treatment program, participation
at least annually in polygraph examinations to obtain
information necessary for risk management and treatment and to reduce the sex offender’s denial mechanisms.
A polygraph examination must be conducted by a
polygrapher who is a member of a national or state
polygraph association and who is certified as a postconviction sex offender polygrapher, where available,
and at the expense of the offender.
(26) Maintenance of a driving log and a prohibition
against driving a motor vehicle alone without the
prior approval of the supervising officer.
(27) A prohibition against obtaining or using a
post office box without the prior approval of the supervising officer.
(28) If there was sexual contact, a submission to,
at the offender’s expense, an FIN test with the results
to be released to the victim and/or the victim’s parent
or guardian.
(29) Electronic monitoring when deemed necessary
by the probation officer and supervisor, and ordered
by the court at the recommendation of the Department
of Corrections. If you are placed on electronic moni-

App.13a
toring, you must pay the department for the cost of
the electronic monitoring service.
(30) Effective for an offender whose crime was
committed on or after July 1, 2005, and who are placed
on supervision for violation of chapter 794, s. 800.04,
s. 827.071, s. 847.0135(5), or s. 847.0145, a prohibition
on accessing the Internet or other computer services
until a qualified practitioner in the offender’s sex
offender treatment program, after a risk assessment
is completed, approves and implements a safety plan
for the offender’s accessing or using the Internet or
other computer services.
(31) Effective for offenders whose crime was committed on or after September 1, 2005, there is hereby
imposed, in addition to any other provision in this
section, mandatory electronic monitoring as a condition
of supervision for those who:
•

Are placed on supervision for a violation of
chapter 794, s. 800.04(4), (5), or (6), s. 827.071,
or a. 847.0145 and the unlawful sexual activity
involved a victim 15 years of age or younger
and the offender is 18 years of age or older; or

•

Are designated as a sexual predator pursuant
to a. 775.21; or

•

Has previously been convicted o f a violation of
chapter 794, s. 800.04(4), (5), or (6), s. 827.071,
or s. 847.0145 and the unlawful sexual activity
involved a victim 15 years of age or younger
and the offender is 18 years of age or older.

You are hereby placed on notice that should you
violate your probation or community control, and the
conditions set forth in s. 948.063(1) or (2) are satisfied,

App.14a
whether your probation or community control is
revoked or not revoked, you shall be placed on electronic monitoring in accordance with F.S. 948,063,
(32) Effective for offenders who are subject to
supervision for a crime that was committed on or
after May 26, 2010, and who has been convicted at
any time of committing, or attempting, soliciting, or
conspiring to commit, any of the criminal offenses
listed in s.943.0435(1)(h)1.a.(I), or a similar offense in
another jurisdiction, against a victim who was under
the age of 18 at the time of the offense: the following
conditions are imposed in addition to all other conditions:
(a) A prohibition on visiting schools, child care
facilities, parks, and playgrounds, without
prior approval from the offender’s supervising
officer. The court may also designate additional locations to protect a victim. The prohibition ordered under this paragraph does
not prohibit the offender from visiting a
school, child care facility, park, or playground
for the sole purpose Of attending a religious
service as defined ins. 775.0861 or picking up
or dropping off the offender’s children or
grandchildren at a child care facility or school.
(b) A prohibition on distributing candy or other
items to children on Halloween; wearing a
Santa Claus costume, or other costume to
appeal to children, on or preceding Christmas;
wearing an Easter Bunny costume, or other
costume to appeal to children, on or preceding
Easter; entertaining at children’s parties;
or wearing a clown costume; without prior
approval from the court.

App.15a
(33) Effective for offenders whose crime was
committed on or after October 1, 2014, and who is
placed on probation or community control for a violation
of chapter 794, s. 800.04, s. 827.071, s. 847.0135(5), or
s. 847.0145, in addition to all other conditions imposed,
is prohibited from viewing, accessing, owning, or
possessing any obscene, pornographic, or sexually
stimulating visual or auditory material unless otherwise indicated in the treatment plan provided by a
qualified practitioner in the sexual offender treatment
program. Visual or auditory material includes, but is
not limited to, telephone, electronic media, computer
programs, and computer services.
YOU ARE HEREBY PLACED ON NOTICE that
the court may at any time rescind or modify any of
the conditions of your probation, or may extend the
period of probation as authorized by Jaw, or may discharge you from further supervision. If you violate any
of the conditions of your probation, you may be
arrested and the court may revoke your probation,
adjudicate you guilty if adjudication of guilt was
withheld, and impose any sentence that it might
have imposed before placing you on probation or require you to serve the balance of the sentence.
IT IS FURTHER ORDERED that when you have
been instructed as to the conditions of probation, you
shall be released from custody if you are in custody,
and if you are at liberty on bond, the sureties thereon
shall stand discharged from liability, (This paragraph applies only if section 1 or section 2 is checked.)
IT IS FURTHER ORDERED that you pay:
Court Costs, Fees, and Fines, as imposed at
sentencing, in the total amount of: $975.00

App.16a
Payments processed through the Department of
Corrections will be assessed a 4% surcharge pursuant
to s. 945.31, F.S.
Pursuant to s, 948.09, F.S., you will be assessed an
amount of $2.00 per month for each month of supervision for the Training Trust Fund Surcharge.
SPECIFIC INSTRUCTIONS FOR PAYMENT:
Payment Order: 11 Restitution; 2) Court Ordered Costs,
Fines & Fees; 3) Department of Corrections Fees
(COS, Drug Testing & Training Trust Fund Fee).
IT IS FURTHER ORDERED that the clerk of
this court file this order in the clerk’s office and provide certified copies of same to the officer for use in
compliance with the requirements of law.
DONE AND ORDERED, on February 19, 2019
/s/ Kelvin C. Wells
Circuit Judge

App.17a
INFORMATION
(ATTACHMENT 2)
(FEBRUARY 12, 2018)
IN THE NAME AND BY THE
AUTHORITY OF THE STATE OF FLORIDA
IN THE CIRCUIT COURT OF
WALTON COUNTY, FLORIDA
________________________
STATE OF FLORIDA
v.
BRANDAN ANDREW MACK
________________________
No. 18CF098
SA#: 6618CF001917A
RACE: W SEX: M

DOB: 07/24/2000

ADDRESS OF DEF.:
BRANDAN ANDREW MACK,
XXXXXXXXXXXX, DESTIN, FL
1-11 POSSESSING PHOTOS, MOTION PICTURES,
ETC., WHICH INCLUDE SEXUAL CONDUCT
BY A CHILD (1135)
12 COMPUTER PORNOGRAPHY (1150)

App.18a
WILLIAM EDDINS, STATE ATTORNEY FOR
THE FIRST JUDICIAL CIRCUIT OF FLORIDA,
PROSECUTING FOR THE STATE OF FLORIDA,
CHARGES THAT BRANDAN ANDREW MACK, on
or about February 6, 2018, at and in Walton County,
Florida, did unlawfully and knowingly possess a photograph, motion picture, exhibition, show, representation, or other presentation, a photograph, titled in
whole or in part, “078fea16-de52-4473-a3e2-6779d6e
66832.jpg” which depicted a female child approximately 6-8 years of age with her vagina exposed and
an adult male inserting his penis into her vagina,
which, in whole or in part, he knew included any sexual
conduct by a child, less than eighteen (18) years of age,
in violation of Section 827.071(5), Florida Statutes.
(F3-L5)
Count 2:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other
presentation, a photograph, titled whole or in part,
“a01b93b2-01d4-4798-956f-6bad2b765759.jpg” which
depicted a nude female child approximately 7-10 years
of age with her vagina exposed in a lewd manner and
her finger inserted into her vagina, which, in whole
or in part, he knew included any sexual conduct by a
child, less than eighteen (18) years of age, in violation of Section 827.071(5), Florida Statutes. (F3-L5)

App.19a
Count 3:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other presentation, a photograph, titled in whole or in part,
“462e2919-65eb-49c5-99ad-6139d6b5dd32.jpg” which
depicted a female child approximately 4-6 years of
age laying on her stomach with an adult male’s penis
inserted into her anus and another male’s penis
underneath the girl’s vagina, which, in whole or in
part, he knew included any sexual conduct by a child,
less than eighteen (18) years of age, In violation of
Section 827.071(5), Florida Statutes. (F3-L5)
Count 4:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other
presentation, a photograph, titled in whole or in part,
“688f07c54986-4135-8111-96412a0a45ac.jpg” which
depicted a nude female child approximately 5-7 years
of age with her vagina exposed in a lewd manner,
which, in whole or in part, he knew included any sexual
conduct by a child, less than eighteen (18) years of
age, in violation of Section 827.071(5), Florida Statutes.
(F3-L5)

App.20a
Count 5:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other presentation, a photograph, titled in whole in part, “201508-13 23.45.45.jpg” which depicted a nude female child
approximately 8-10 years of age with what appears
to be semen on her mouth, with an adult male’s penis
next to her mouth, and the man’s hand covering her
shirtless breast, which, in whole or in part, he knew
included any sexual conduct by a child, less than
eighteen (18) years of age, in violation of Section 827.
071(5), Florida Statutes. (F3-L5)
Count 6:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February 6,
2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other presentation, a photograph, titled in whole or in part,
“a07a794c-7400-4ffd-a6c8-3e8af0dcae8f.jpg” which
depicted a nude female child approximately 6-8 years
old with her vagina exposed in a lewd manner and
both her hands holding male penises, which, in whole
or in part, he knew Included any sexual conduct by a
child, less than eighteen (18) years of age, in violation
of Section 827.071(5), Florida Statutes. (F3-L5)

App.21a
Count 7:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other presentation, a photograph, titled in whole or in part,
“a433b3a4-b243-4d5fr9e68-ea86054656e6.jpg” which
depicted a partially nude female child approximately
3-5 years of age with her vagina exposed in a lewd
manner, which, in whole or in part, he knew included
any sexual conduct by a child, less than eighteen (18)
years of age, in violation of Section 827.071(5), Florida
Statutes. (F3-L5)
Count 8:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or otherpresentation, a photograph, titled in whole or in part,
“af4f9525-d9cd-41d2-b824-d9689clbebdl.jpg” which
depicted a female child between 5-7 years of age with
an adult male’s penis in her mouth with her hand
holding the penis, which, in whole or in part, he knew
included any sexual conduct by a child, less than
eighteen (18) years of age, in violation of Section
827.071(5), Florida Statutes. (F3-L5)

App.22a
Count 9:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other presentation, a photograph, titled in whole or In part,
“imgsrc.ru_50.46686rCd.jpg” which depicted an approximately 7-9 years of age nude female sitting on the
lap of a nude male child approximately 10-12 years
of age with her legs wrapped around him while
kissing him, which, in whole or in part, he knew
included any sexual conduct by a child, less than
eighteen (18) years of age, in violation of Section
827.071(5), Florida Statutes. (F3-L5)
Count 10:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February
6, 2018, at and in Walton County, Florida, did unlawfully and knowingly possess a photograph, motion
picture, exhibition, show, representation, or other
presentation, a photograph, titled in whole or in part,
“imgsrc.ru50.46686rCd.jpg” which depicted an approximately 10-12 years of age nude male with a 7-9
years of age nude female sifting on his lap with her
legs wrapped around him and kissing him with his
genitals visible underneath her buttocks, which, in
whole or in part, he knew Included any sexual conduct

App.23a
by a child, less than eighteen (18) years of age, in violation of Section 827.071(5), Florida Statutes. (F3-L5)
Count 11:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, on or about February 6,
2018, at and in Walton County, Florida, did unlawfully
and knowingly possess a photograph, motion picture,
exhibition, show, representation, or other presentation, a photograph, titled in whole or in part, “Photo
Feb 04, 2 09 38 pPM.jpg” which depicted from the
waist up a nude female child approximately 5-7
years of age holding a male’s erect penis in her hands
while there is a white substance that appears to be
semen on the girl’s face, which, in whole or In part,
he knew included any sexual conduct by a child, less
than eighteen (18) years of age, in violation of Section
827.071(5), Florida Statutes. (F3-L5)
Count 12:
AND YOUR INFORMANT AFORESAID, PROSECUTING AS AFORESAID, ON HIS OATH AFORESAID, FURTHER INFORMATION MAKES THAT
BRANDAN ANDREW MACK, from on or about
December 29, 2017 through on or about February 6,
2018, at and in Walton County, Florida, did unlawfully and knowingly compile, enter into, or transmit
by use of computer; OR make, print, publish, or reproduce by other computerized means; OR knowingly
cause or allow to be entered into or transmitted by
use of computer; OR buy, sell, receive, exchange or
disseminate any notice, statement, or advertisement of

App.24a
any minor’s name, telephone number, place of residence, physical characteristics, or other descriptive or
identifying information for purposes of facilitating,
encouraging, offering, or soliciting sexual conduct of
or with any minor, or the visual depiction of such
conduct, in violation of Section 847.0135(2), Florida
Statutes. (F3-L6)

App.25a
STATE OF FLORIDA
COUNTY OF WALTON
Before me personally appeared the undersigned
designated Assistant State Attorney for the First
Judicial Circuit of Florida, being personally known to
me, and who first being duly sworn, says that the
allegations set forth in the foregoing Information are
based on facts that have been sworn as true, and
which if true, would constitute the offense there
charged, that said Assistant State Attorney has received
testimony under oath from a material witness or
witnesses for the offense and that this prosecution is
instituted in good faith.
Sworn to and subscribed before me this 12 day
of February, 2018.
Matthew J. Richardson
Florida Bar No.: 91208
Assistant State Attorney
524A E HWY 90
DeFuniak Springs, FL 32435
Phone No: (595) 892-8080
mrichardson@sa01.org

App.26a
CONSTITUTIONAL PROVISIONS INVOLVED
FLA § 827.071
Sexual performance by a child; penalties.
(1) As used in this section, the following definitions
shall apply:
(a) “Deviate sexual intercourse” means sexual
conduct between persons not married to each
other consisting of contact between the penis
and the anus, the mouth and the penis, or the
mouth and the vulva.
(b) “Intentionally view” means to deliberately,
purposefully, and voluntarily view. Proof of
intentional viewing requires establishing more
than a single image, motion picture, exhibition,
show, image, data, computer depiction, representation, or other presentation over any period
of time.
(c) “Performance” means any play, motion picture,
photograph, or dance or any other visual representation exhibited before an audience.
(d) “Promote” means to procure, manufacture,
issue, sell, give, provide, lend, mail, deliver,
transfer, transmute, publish, distribute, circulate,
disseminate, present, exhibit, or advertise or
to offer or agree to do the same.
(e) “Sadomasochistic abuse” means flagellation or
torture by or upon a person, or the condition
of being fettered, bound, or otherwise physically
restrained, for the purpose of deriving sexual
satisfaction from inflicting harm on another
or receiving such harm oneself.

App.27a
(f) “Sexual battery” means oral, anal, or vaginal
penetration by, or union with, the sexual organ
of another or the anal or vaginal penetration of
another by any other object; however, “sexual
battery” does not include an act done for a
bona fide medical purpose.
(g) “Sexual bestiality” means any sexual act
between a person and an animal involving the
sex organ of the one and the mouth, anus, or
vagina of the other.
(h) “Sexual conduct” means actual or simulated
sexual intercourse, deviate sexual intercourse,
sexual bestiality, masturbation, or sadomasochistic
abuse; actual lewd exhibition of the genitals;
actual physical contact with a person’s clothed
or unclothed genitals, pubic area, buttocks, or,
if such person is a female, breast, with the intent
to arouse or gratify the sexual desire of either
party; or any act or conduct which constitutes
sexual battery or simulates that sexual battery is
being or will be committed. A mother’s breastfeeding of her baby does not under any circumstance constitute “sexual conduct.”
(i) “Sexual performance” means any performance
or part thereof which includes sexual conduct
by a child of less than 18 years of age.
(j) “Simulated” means the explicit depiction of
conduct set forth in paragraph (h) which creates
the appearance of such conduct and which
exhibits any uncovered portion of the breasts,
genitals, or buttocks.
(2) A person is guilty of the use of a child in a sexual
performance if, knowing the character and content

App.28a
thereof, he or she employs, authorizes, or induces
a child less than 18 years of age to engage in a
sexual performance or, being a parent, legal
guardian, or custodian of such child, consents to
the participation by such child in a sexual performance. Whoever violates this subsection is
guilty of a felony of the second degree, punishable
as provided in s. 775.082, s. 775.083, or s. 775.084.
(3) A person is guilty of promoting a sexual performance by a child when, knowing the character
and content thereof, he or she produces, directs,
or promotes any performance which includes
sexual conduct by a child less than 18 years of
age. Whoever violates this subsection is guilty of
a felony of the second degree, punishable as provided in s. 775.082, s. 775.083, or s. 775.084.
(4) It is unlawful for any person to possess with the
intent to promote any photograph, motion picture,
exhibition, show, representation, or other presentation which, in whole or in part, includes
any sexual conduct by a child. The possession of
three or more copies of such photograph, motion
picture, representation, or presentation is prima
facie evidence of an intent to promote. Whoever
violates this subsection is guilty of a felony of
the second degree, punishable as provided in s.
775.082, s. 775.083, or s. 775.084.
(5)
(a) It is unlawful for any person to knowingly
possess, control, or intentionally view a photograph, motion picture, exhibition, show, representation, image, data, computer depiction, or
other presentation which, in whole or in part,

App.29a
he or she knows to include any sexual conduct
by a child. The possession, control, or intentional viewing of each such photograph, motion
picture, exhibition, show, image, data, computer
depiction, representation, or presentation is a
separate offense. If such photograph, motion
picture, exhibition, show, representation, image,
data, computer depiction, or other presentation
includes sexual conduct by more than one child,
then each such child in each such photograph,
motion picture, exhibition, show, representation, image, data, computer depiction, or other
presentation that is knowingly possessed, controlled, or intentionally viewed is a separate offense.
A person who violates this subsection commits
a felony of the third degree, punishable as provided in s. 775.082, s. 775.083, or s. 775.084.
(b) This subsection does not apply to material
possessed, controlled, or intentionally viewed
as part of a law enforcement investigation.
(6) Prosecution of any person for an offense under
this section shall not prohibit prosecution of that
person in this state for a violation of any law of
this state, including a law providing for greater
penalties than prescribed in this section or any
other crime punishing the sexual performance or
the sexual exploitation of children.
[***]

App.30a
FLA § 847.0135
Computer pornography; prohibited computer usage;
traveling to meet minor; penalties
(1) SHORT TITLE.—This section shall be known and
may be cited as the “Computer Pornography and
Child Exploitation Prevention Act.”
(2) COMPUTER PORNOGRAPHY.—A person who:
(a) Knowingly compiles, enters into, or transmits
by use of computer;
(b) Makes, prints, publishes, or reproduces by
other computerized means;
(c) Knowingly causes or allows to be entered
into or transmitted by use of computer; or
(d) Buys, sells, receives, exchanges, or disseminates, any notice, statement, or advertisement
of any minor’s name, telephone number, place
of residence, physical characteristics, or other
descriptive or identifying information for purposes of facilitating, encouraging, offering, or
soliciting sexual conduct of or with any minor,
or the visual depiction of such conduct, commits
a felony of the third degree, punishable as
provided in s. 775.082, s. 775.083, or s. 775.084.
The fact that an undercover operative or law
enforcement officer was involved in the detection
and investigation of an offense under this section
shall not constitute a defense to a prosecution
under this section.
(3) CERTAIN USES OF COMPUTER SERVICES OR
DEVICES PROHIBITED.—Any person who knowingly uses a computer online service, Internet
service, local bulletin board service, or any other

App.31a
device capable of electronic data storage or
transmission to:
(a) Seduce, solicit, lure, or entice, or attempt to
seduce, solicit, lure, or entice, a child or another
person believed by the person to be a child, to
commit any illegal act described in chapter
794, chapter 800, or chapter 827, or to otherwise
engage in any unlawful sexual conduct with a
child or with another person believed by the
person to be a child; or
(b) Solicit, lure, or entice, or attempt to solicit,
lure, or entice a parent, legal guardian, or custodian of a child or a person believed to be a
parent, legal guardian, or custodian of a child
to consent to the participation of such child in
any act described in chapter 794, chapter 800,
or chapter 827, or to otherwise engage in any
sexual conduct, commits a felony of the third
degree, punishable as provided in s. 775.082, s.
775.083, or s. 775.084. Any person who, in violating this subsection, misrepresents his or her
age, commits a felony of the second degree,
punishable as provided in s. 775.082, s. 775.083,
or s. 775.084. Each separate use of a computer
online service, Internet service, local bulletin
board service, or any other device capable of
electronic data storage or transmission wherein
an offense described in this section is committed may be charged as a separate offense.
(4) TRAVELING TO MEET A MINOR.—Any person
who travels any distance either within this state,
to this state, or from this state by any means,
who attempts to do so, or who causes another to
do so or to attempt to do so for the purpose of

App.32a
engaging in any illegal act described in chapter
794, chapter 800, or chapter 827, or to otherwise
engage in other unlawful sexual conduct with a
child or with another person believed by the person
to be a child after using a computer online service,
Internet service, local bulletin board service, or
any other device capable of electronic data storage
or transmission to:
(a) Seduce, solicit, lure, or entice or attempt to
seduce, solicit, lure, or entice a child or another
person believed by the person to be a child, to
engage in any illegal act described in chapter
794, chapter 800, or chapter 827, or to otherwise
engage in other unlawful sexual conduct with
a child; or
(b) Solicit, lure, or entice or attempt to solicit,
lure, or entice a parent, legal guardian, or custodian of a child or a person believed to be a
parent, legal guardian, or custodian of a child
to consent to the participation of such child in
any act described in chapter 794, chapter 800,
or chapter 827, or to otherwise engage in any
sexual conduct, commits a felony of the second
degree, punishable as provided in s. 775.082, s.
775.083, or s. 775.084.
(5) CERTAIN COMPUTER TRANSMISSIONS
PROHIBITED.—
(a) A person who:
1.

Intentionally masturbates;

2.

Intentionally exposes the genitals in a
lewd or lascivious manner; or

App.33a
3.

Intentionally commits any other sexual
act that does not involve actual physical
or sexual contact with the victim,
including, but not limited to, sadomasochistic abuse, sexual bestiality, or the
simulation of any act involving sexual
activity live over a computer online
service, Internet service, or local bulletin
board service and who knows or should
know or has reason to believe that the
transmission is viewed on a computer
or television monitor by a victim who is
less than 16 years of age, commits lewd
or lascivious exhibition in violation of
this subsection. The fact that an undercover operative or law enforcement
officer was involved in the detection and
investigation of an offense under this
subsection shall not constitute a defense
to a prosecution under this subsection.

(b) An offender 18 years of age or older who
commits a lewd or lascivious exhibition using
a computer commits a felony of the second
degree, punishable as provided in s. 775.082,
s. 775.083, or s. 775.084.
(c) An offender less than 18 years of age who
commits a lewd or lascivious exhibition using
a computer commits a felony of the third
degree, punishable as provided in s. 775.082,
s. 775.083, or s. 775.084.
(d) A mother’s breastfeeding of her baby does
not under any circumstance constitute a
violation of this subsection.

App.34a
(6) OWNERS OR OPERATORS OF COMPUTER
SERVICES LIABLE.—It is unlawful for any
owner or operator of a computer online service,
Internet service, or local bulletin board service
knowingly to permit a subscriber to use the
service to commit a violation of this section. Any
person who violates this section commits a
misdemeanor of the first degree, punishable by a
fine not exceeding $2,000.
(7) STATE CRIMINAL JURISDICTION.—A person
is subject to prosecution in this state pursuant
to chapter 910 for any conduct proscribed by this
section which the person engages in, while either
within or outside this state, if by such conduct the
person commits a violation of this section involving
a child, a child’s guardian, or another person
believed by the person to be a child or a child’s
guardian.
(8) EFFECT OF PROSECUTION.—Prosecution of
any person for an offense under this section
shall not prohibit prosecution of that person in
this state or another jurisdiction for a violation
of any law of this state, including a law providing
for greater penalties than prescribed in this
section or any other crime punishing the sexual
performance or the sexual exploitation of children.
[***]
FLA § 943.0435
Sexual offenders required to register with the
department; penalty.
(1) As used in this section, the term:

App.35a
(a) “Change in status at an institution of higher
education” has the same meaning as provided
in s. 775.21.
(b) “Convicted” means that there has been a
determination of guilt as a result of a trial or
the entry of a plea of guilty or nolo contendere,
regardless of whether adjudication is withheld,
and includes an adjudication of delinquency of
a juvenile as specified in this section. Conviction
of a similar offense includes, but is not limited
to, a conviction by a federal or military tribunal,
including courts-martial conducted by the Armed
Forces of the United States, and includes a
conviction or entry of a plea of guilty or nolo
contendere resulting in a sanction in any state
of the United States or other jurisdiction. A
sanction includes, but is not limited to, a fine,
probation, community control, parole, conditional
release, control release, or incarceration in a
state prison, federal prison, private correctional
facility, or local detention facility.
(c) “Electronic mail address” has the same meaning as provided in s. 668.602.
(d) “Institution of higher education” has the
same meaning as provided in s. 775.21.
(e) “Internet identifier” has the same meaning as
provided in s. 775.21.
(f) “Permanent residence,” “temporary residence,”
and “transient residence” have the same meaning
as provided in s. 775.21.
(g) “Professional license” has the same meaning
as provided in s. 775.21.

App.36a
(h)
1.

“Sexual offender” means a person who meets
the criteria in sub-subparagraph a., sub-subparagraph b., sub-subparagraph c., or subsubparagraph d., as follows:

a.
(I)

Has been convicted of committing, or
attempting, soliciting, or conspiring to
commit, any of the criminal offenses proscribed in the following statutes in this
state or similar offenses in another
jurisdiction: s. 393.135(2); s. 394.4593
(2); s. 787.01, s. 787.02, or s. 787.025(2)
(c), where the victim is a minor; s. 787.
06(3)(b), (d), (f), or (g); former s. 787.06
(3)(h); s. 794.011, excluding s. 794.011
(10); s. 794.05; former s. 796.03; former
s. 796.035; s. 800.04; s. 810.145(8); s.
825.1025; s. 827.071; s. 847.0133; s.
847.0135, excluding s. 847.0135(6); s.
847.0137; s. 847.0138; s. 847.0145; s.
895.03, if the court makes a written
finding that the racketeering activity
involved at least one sexual offense
listed in this sub-sub-subparagraph or
at least one offense listed in this subsub-subparagraph with sexual intent or
motive; s. 916.1075(2); or s. 985.701(1);
or any similar offense committed in
this state which has been redesignated
from a former statute number to one of
those listed in this sub-sub-subparagraph; and

App.37a
(II) Has been released on or after October
1, 1997, from the sanction imposed for
any conviction of an offense described
in sub-sub-subparagraph (I). For purposes of sub-sub-subparagraph (I), a
sanction imposed in this state or in any
other jurisdiction includes, but is not
limited to, a fine, probation, community
control, parole, conditional release,
control release, or incarceration in a
state prison, federal prison, private correctional facility, or local detention facility;
b.

Establishes or maintains a residence in this
state and who has not been designated as a
sexual predator by a court of this state but
who has been designated as a sexual predator,
as a sexually violent predator, or by another
sexual offender designation in another state
or jurisdiction and was, as a result of such
designation, subjected to registration or
community or public notification, or both, or
would be if the person were a resident of
that state or jurisdiction, without regard to
whether the person otherwise meets the
criteria for registration as a sexual offender;

c.

Establishes or maintains a residence in this
state who is in the custody or control of, or
under the supervision of, any other state or
jurisdiction as a result of a conviction for
committing, or attempting, soliciting, or
conspiring to commit, any of the criminal
offenses proscribed in the following statutes
or similar offense in another jurisdiction: s.

App.38a
393.135(2); s. 394.4593(2); s. 787.01, s. 787.02,
or s. 787.025(2)(c), where the victim is a
minor; s. 787.06(3)(b), (d), (f), or (g); former s.
787.06(3)(h); s. 794.011, excluding s. 794.011
(10); s. 794.05; former s. 796.03; former s.
796.035; s. 800.04; s. 810.145(8); s. 825.1025;
s. 827.071; s. 847.0133; s. 847.0135, excluding
s. 847.0135(6); s. 847.0137; s. 847.0138; s.
847.0145; s. 895.03, if the court makes a
written finding that the racketeering activity
involved at least one sexual offense listed in
this sub-subparagraph or at least one offense
listed in this sub-subparagraph with sexual
intent or motive; s. 916.1075(2); or s. 985.701
(1); or any similar offense committed in this
state which has been redesignated from a
former statute number to one of those listed
in this sub-subparagraph; or
d.

On or after July 1, 2007, has been adjudicated
delinquent for committing, or attempting,
soliciting, or conspiring to commit, any of
the criminal offenses proscribed in the
following statutes in this state or similar
offenses in another jurisdiction when the
juvenile was 14 years of age or older at the
time of the offense:
(I)

Section 794.011, excluding s. 794.011
(10);

(II) Section 800.04(4)(a)2. where the victim
is under 12 years of age or where the
court finds sexual activity by the use of
force or coercion;

App.39a
(III) Section 800.04(5)(c)1. where the court
finds molestation involving unclothed
genitals;
(IV) Section 800.04(5)(d) where the court
finds the use of force or coercion and
unclothed genitals; or
(V) Any similar offense committed in this
state which has been redesignated from
a former statute number to one of those
listed in this sub-subparagraph.
2.

For all qualifying offenses listed in subsubparagraph 1.d., the court shall make a
written finding of the age of the offender at
the time of the offense.
For each violation of a qualifying offense
listed in this subsection, except for a violation
of s. 794.011, the court shall make a written
finding of the age of the victim at the time
of the offense. For a violation of s. 800.04(4),
the court shall also make a written finding
indicating whether the offense involved
sexual activity and indicating whether the
offense involved force or coercion. For a violation of s. 800.04(5), the court shall also
make a written finding that the offense did
or did not involve unclothed genitals or
genital area and that the offense did or did
not involve the use of force or coercion.
(i)

”Vehicles owned” has the same meaning
as provided in s. 775.21.

(2) Upon initial registration, a sexual offender shall:
(a) Report in person at the sheriff’s office:

App.40a
1.

2.

In the county in which the offender establishes
or maintains a permanent, temporary, or
transient residence within 48 hours after:
a.

Establishing permanent, temporary, or
transient residence in this state; or

b.

Being released from the custody, control,
or supervision of the Department of
Corrections or from the custody of a
private correctional facility; or

In the county where he or she was convicted
within 48 hours after being convicted for a
qualifying offense for registration under
this section if the offender is not in the
custody or control of, or under the supervision
of, the Department of Corrections, or is not
in the custody of a private correctional facility.
Any change in the information required to
be provided pursuant to paragraph (b),
including, but not limited to, any change in
the sexual offender’s permanent, temporary,
or transient residence; name; electronic mail
addresses; Internet identifiers and each
Internet identifier’s corresponding website
homepage or application software name; home
telephone numbers and cellular telephone
numbers; employment information; and any
change in status at an institution of higher
education after the sexual offender reports in
person at the sheriff’s office must be reported
in the manner provided in subsections (4),
(7), and (8).

App.41a
(b) Provide his or her name; date of birth; social
security number; race; sex; height; weight; hair
and eye color; tattoos or other identifying marks;
fingerprints; palm prints; photograph; employment
information; address of permanent or legal
residence or address of any current temporary
residence, within the state or out of state, including
a rural route address and a post office box; if no
permanent or temporary address, any transient
residence within the state, address, location or
description, and dates of any current or known
future temporary residence within the state or out
of state; the make, model, color, vehicle identification number (VIN), and license tag number
of all vehicles owned; home telephone numbers
and cellular telephone numbers; electronic mail
addresses; Internet identifiers and each Internet
identifier’s corresponding website homepage or
application software name; date and place of
each conviction; and a brief description of the
crime or crimes committed by the offender. A
post office box may not be provided in lieu of a
physical residential address. The sexual offender
shall also produce his or her passport, if he or
she has a passport, and, if he or she is an alien,
shall produce or provide information about documents establishing his or her immigration status.
The sexual offender shall also provide information
about any professional licenses he or she has.
1.

If the sexual offender’s place of residence is
a motor vehicle, trailer, mobile home, or
manufactured home, as defined in chapter
320, the sexual offender shall also provide
to the department through the sheriff’s office

App.42a
written notice of the vehicle identification
number; the license tag number; the registration number; and a description, including
color scheme, of the motor vehicle, trailer,
mobile home, or manufactured home. If the
sexual offender’s place of residence is a
vessel, live-aboard vessel, or houseboat, as
defined in chapter 327, the sexual offender
shall also provide to the department written
notice of the hull identification number; the
manufacturer’s serial number; the name of
the vessel, live-aboard vessel, or houseboat;
the registration number; and a description,
including color scheme, of the vessel, liveaboard vessel, or houseboat.
2.

If the sexual offender is enrolled or employed,
whether for compensation or as a volunteer,
at an institution of higher education in this
state, the sexual offender shall also provide
to the department the name, address, and
county of each institution, including each
campus attended, and the sexual offender’s
enrollment, volunteer, or employment status.
The sheriff, the Department of Corrections,
or the Department of Juvenile Justice shall
promptly notify each institution of higher
education of the sexual offender’s presence
and any change in the sexual offender’s
enrollment, volunteer, or employment status.

3.

A sexual offender shall report in person to
the sheriff’s office within 48 hours after any
change in vehicles owned to report those
vehicle information changes.

App.43a
(c) Provide any other information determined
necessary by the department, including criminal
and corrections records; nonprivileged personnel
and treatment records; and evidentiary genetic
markers, when available.
When a sexual offender reports at the sheriff’s
office, the sheriff shall take a photograph, a set
of fingerprints, and palm prints of the offender
and forward the photographs, palm prints, and
fingerprints to the department, along with the
information provided by the sexual offender. The
sheriff shall promptly provide to the department
the information received from the sexual offender.
(3) Within 48 hours after the report required under
subsection (2), a sexual offender shall report in
person at a driver license office of the Department
of Highway Safety and Motor Vehicles, unless a
driver license or identification card that complies
with the requirements of s. 322.141(3) was previously secured or updated under s. 944.607. At
the driver license office the sexual offender shall:
(a) If otherwise qualified, secure a Florida driver
license, renew a Florida driver license, or
secure an identification card. The sexual
offender shall identify himself or herself as
a sexual offender who is required to comply
with this section and shall provide proof
that the sexual offender reported as required
in subsection (2). The sexual offender shall
provide any of the information specified in
subsection (2), if requested. The sexual offender shall submit to the taking of a photograph
for use in issuing a driver license, renewed
license, or identification card, and for use by

App.44a
the department in maintaining current
records of sexual offenders.
(b) Pay the costs assessed by the Department
of Highway Safety and Motor Vehicles for
issuing or renewing a driver license or identification card as required by this section. The
driver license or identification card issued
must be in compliance with s. 322.141(3).
(c) Provide, upon request, any additional information necessary to confirm the identity of
the sexual offender, including a set of fingerprints.
(4)
(a) Each time a sexual offender’s driver license
or identification card is subject to renewal,
and, without regard to the status of the
offender’s driver license or identification
card, within 48 hours after any change in
the offender’s permanent, temporary, or
transient residence or change in the offender’s
name by reason of marriage or other legal
process, the offender shall report in person
to a driver license office, and is subject to
the requirements specified in subsection (3).
The Department of Highway Safety and
Motor Vehicles shall forward to the department all photographs and information provided by sexual offenders. Notwithstanding
the restrictions set forth in s. 322.142, the
Department of Highway Safety and Motor
Vehicles may release a reproduction of a
color-photograph or digital-image license to
the Department of Law Enforcement for pur-

App.45a
poses of public notification of sexual offenders
as provided in this section and ss. 943.043 and
944.606. A sexual offender who is unable to
secure or update a driver license or an
identification card with the Department of
Highway Safety and Motor Vehicles as provided in subsection (3) and this subsection
shall also report any change in the sexual
offender’s permanent, temporary, or transient
residence or change in the offender’s name
by reason of marriage or other legal process
within 48 hours after the change to the
sheriff’s office in the county where the
offender resides or is located and provide
confirmation that he or she reported such
information to the Department of Highway
Safety and Motor Vehicles. The reporting
requirements under this paragraph do not
negate the requirement for a sexual offender
to obtain a Florida driver license or an identification card as required in this section.
(b)
1.

A sexual offender who vacates a permanent, temporary, or transient residence and fails to establish or maintain
another permanent, temporary, or
transient residence shall, within 48 hours
after vacating the permanent, temporary, or transient residence, report in
person to the sheriff’s office of the county
in which he or she is located. The
sexual offender shall specify the date
upon which he or she intends to or did
vacate such residence. The sexual

App.46a
offender must provide or update all of the
registration information required under
paragraph (2)(b). The sexual offender
must provide an address for the residence or other place that he or she is or
will be located during the time in which
he or she fails to establish or maintain
a permanent or temporary residence.
2.

A sexual offender shall report in person
at the sheriff’s office in the county in
which he or she is located within 48
hours after establishing a transient
residence and thereafter must report in
person every 30 days to the sheriff’s
office in the county in which he or she
is located while maintaining a transient
residence. The sexual offender must provide the addresses and locations where
he or she maintains a transient residence. Each sheriff’s office shall establish
procedures for reporting transient residence information and provide notice to
transient registrants to report transient
residence information as required in this
subparagraph. Reporting to the sheriff’s
office as required by this subparagraph
does not exempt registrants from any
reregistration requirement. The sheriff
may coordinate and enter into agreements with police departments and
other governmental entities to facilitate
additional reporting sites for transient
residence registration required in this
subparagraph. The sheriff’s office shall,

App.47a
within 2 business days, electronically
submit and update all information provided by the sexual offender to the
department.
(c) A sexual offender who remains at a permanent, temporary, or transient residence
after reporting his or her intent to vacate
such residence shall, within 48 hours after
the date upon which the offender indicated
he or she would or did vacate such residence,
report in person to the agency to which he
or she reported pursuant to paragraph (b)
for the purpose of reporting his or her
address at such residence. When the sheriff
receives the report, the sheriff shall promptly
convey the information to the department.
An offender who makes a report as required
under paragraph (b) but fails to make a
report as required under this paragraph commits a felony of the second degree, punishable
as provided in s. 775.082, s. 775.083, or s.
775.084.
(d) The failure of a sexual offender who maintains
a transient residence to report in person to
the sheriff’s office every 30 days as required
in subparagraph (b)2. is punishable as provided in subsection (9).
(e)
1.

A sexual offender shall register all
electronic mail addresses and Internet
identifiers, and each Internet identifier’s
corresponding website homepage or
application software name, with the

App.48a
department through the department’s online system or in person at the sheriff’s
office within 48 hours after using such
electronic mail addresses and Internet
identifiers. If the sexual offender is in
the custody or control, or under the
supervision, of the Department of Corrections, he or she must report all
electronic mail addresses and Internet
identifiers, and each Internet identifier’s
corresponding website homepage or
application software name, to the
Department of Corrections before using
such electronic mail addresses or Internet
identifiers. If the sexual offender is in
the custody or control, or under the
supervision, of the Department of Juvenile Justice, he or she must report all
electronic mail addresses and Internet
identifiers, and each Internet identifier’s
corresponding website homepage or
application software name, to the Department of Juvenile Justice before using
such electronic mail addresses or Internet identifiers.
2.

A sexual offender shall register all
changes to home telephone numbers and
cellular telephone numbers, including
added and deleted numbers, all changes
to employment information, and all
changes in status related to enrollment, volunteering, or employment at
institutions of higher education, through
the department’s online system; in

App.49a
person at the sheriff’s office; in person
at the Department of Corrections if the
sexual offender is in the custody or
control, or under the supervision, of the
Department of Corrections; or in person
at the Department of Juvenile Justice
if the sexual offender is in the custody
or control, or under the supervision, of
the Department of Juvenile Justice. All
changes required to be reported under
this subparagraph must be reported
within 48 hours after the change.
3.

The department shall establish an online
system through which sexual offenders
may securely access, submit, and update
all changes in status to electronic mail
addresses; Internet identifiers and each
Internet identifier’s corresponding website homepage or application software
name; home telephone numbers and
cellular telephone numbers; employment
information; and institution of higher
education information.

(5) This section does not apply to a sexual offender
who is also a sexual predator, as defined in s.
775.21. A sexual predator must register as required
under s. 775.21.
(6) County and local law enforcement agencies, in
conjunction with the department, shall verify
the addresses of sexual offenders who are not
under the care, custody, control, or supervision
of the Department of Corrections, and may
verify the addresses of sexual offenders who are
under the care, custody, control, or supervision

App.50a
of the Department of Corrections, in a manner
that is consistent with the provisions of the federal Adam Walsh Child Protection and Safety
Act of 2006 and any other federal standards
applicable to such verification or required to be
met as a condition for the receipt of federal funds
by the state. Local law enforcement agencies shall
report to the department any failure by a sexual
offender to comply with registration requirements.
(7) A sexual offender who intends to establish a
permanent, temporary, or transient residence in
another state or jurisdiction other than the State
of Florida shall report in person to the sheriff of
the county of current residence within 48 hours
before the date he or she intends to leave this
state to establish residence in another state or
jurisdiction or at least 21 days before the date he
or she intends to travel if the intended residence
of 5 days or more is outside of the United States.
Any travel that is not known by the sexual
offender 21 days before the departure date must
be reported in person to the sheriff’s office as
soon as possible before departure. The sexual
offender shall provide to the sheriff the address,
municipality, county, state, and country of
intended residence. For international travel, the
sexual offender shall also provide travel information, including, but not limited to, expected
departure and return dates, flight number, airport
of departure, cruise port of departure, or any
other means of intended travel. The sheriff shall
promptly provide to the department the information received from the sexual offender. The
department shall notify the statewide law enforce-

App.51a
ment agency, or a comparable agency, in the
intended state, jurisdiction, or country of residence
of the sexual offender’s intended residence. The
failure of a sexual offender to provide his or her
intended place of residence is punishable as provided in subsection (9).
(8) A sexual offender who indicates his or her intent
to establish a permanent, temporary, or transient
residence in another state, a jurisdiction other
than the State of Florida, or another country
and later decides to remain in this state shall,
within 48 hours after the date upon which the
sexual offender indicated he or she would leave
this state, report in person to the sheriff to
which the sexual offender reported the intended
change of permanent, temporary, or transient
residence, and report his or her intent to remain
in this state. The sheriff shall promptly report
this information to the department. A sexual
offender who reports his or her intent to establish
a permanent, temporary, or transient residence
in another state, a jurisdiction other than the
State of Florida, or another country but who
remains in this state without reporting to the
sheriff in the manner required by this subsection
commits a felony of the second degree, punishable
as provided in s. 775.082, s. 775.083, or s. 775.084.
(9)
(a) A sexual offender who does not comply with
the requirements of this section commits a
felony of the third degree, punishable as provided in s. 775.082, s. 775.083, or s. 775.084.

App.52a
(b) For a felony violation of this section, excluding
subsection (13), committed on or after July 1,
2018, if the court does not impose a prison
sentence, the court shall impose a mandatory
minimum term of community control, as
defined in s. 948.001, as follows:
1.

For a first offense, a mandatory minimum term of 6 months with electronic
monitoring.

2.

For a second offense, a mandatory minimum term of 1 year with electronic
monitoring.

3.

For a third or subsequent offense, a
mandatory minimum term of 2 years
with electronic monitoring.

(c) A sexual offender who commits any act or
omission in violation of this section may be
prosecuted for the act or omission in the
county in which the act or omission was
committed, in the county of the last registered
address of the sexual offender, in the county
in which the conviction occurred for the
offense or offenses that meet the criteria for
designating a person as a sexual offender,
in the county where the sexual offender was
released from incarceration, or in the county
of the intended address of the sexual offender
as reported by the offender prior to his or
her release from incarceration.
(d) An arrest on charges of failure to register
when the offender has been provided and
advised of his or her statutory obligations to
register under subsection (2), the service of

App.53a
an information or a complaint for a violation
of this section, or an arraignment on charges
for a violation of this section constitutes
actual notice of the duty to register. A
sexual offender’s failure to immediately
register as required by this section following
such arrest, service, or arraignment constitutes grounds for a subsequent charge of
failure to register. A sexual offender charged
with the crime of failure to register who
asserts, or intends to assert, a lack of notice
of the duty to register as a defense to a charge
of failure to register shall immediately
register as required by this section. A sexual
offender who is charged with a subsequent
failure to register may not assert the
defense of a lack of notice of the duty to
register. Registration following such arrest,
service, or arraignment is not a defense and
does not relieve the sexual offender of
criminal liability for the failure to register.
(10) The department, the Department of Highway
Safety and Motor Vehicles, the Department of
Corrections, the Department of Juvenile Justice,
any law enforcement agency in this state, and
the personnel of those departments; an elected
or appointed official, public employee, or school
administrator; or an employee, agency, or any
individual or entity acting at the request or upon
the direction of any law enforcement agency is
immune from civil liability for damages for good
faith compliance with the requirements of this
section or for the release of information under
this section, and shall be presumed to have acted

App.54a
in good faith in compiling, recording, reporting,
or releasing the information. The presumption of
good faith is not overcome if a technical or clerical
error is made by the department, the Department of Highway Safety and Motor Vehicles, the
Department of Corrections, the Department of
Juvenile Justice, the personnel of those departments, or any individual or entity acting at the
request or upon the direction of any of those
departments in compiling or providing information, or if information is incomplete or incorrect
because a sexual offender fails to report or falsely
reports his or her current place of permanent,
temporary, or transient residence.
(11) Except as provided in s. 943.04354, a sexual
offender shall maintain registration with the
department for the duration of his or her life
unless the sexual offender has received a full
pardon or has had a conviction set aside in a
postconviction proceeding for any offense that
meets the criteria for classifying the person as a
sexual offender for purposes of registration.
However, a sexual offender shall be considered
for removal of the requirement to register as a
sexual offender only if the person:
(a)
1.

Has been lawfully released from confinement,
supervision, or sanction, whichever is later,
for at least 25 years and has not been arrested
for any felony or misdemeanor offense since
release, provided that the sexual offender’s
requirement to register was not based upon
an adult conviction:

App.55a

2.

a.

For a violation of s. 787.01 or s. 787.02;

b.

For a violation of s. 794.011, excluding
s. 794.011(10);

c.

For a violation of s. 800.04(4)(a)2. where
the court finds the offense involved a
victim under 12 years of age or sexual
activity by the use of force or coercion;

d.

For a violation of s. 800.04(5)(b);

e.

For a violation of s. 800.04(5)(c)2. where
the court finds the offense involved the
use of force or coercion and unclothed
genitals or genital area;

f.

For a violation of s. 825.1025(2)(a);

g.

For any attempt or conspiracy to commit
any such offense;

h.

For a violation of similar law of another
jurisdiction; or

i.

For a violation of a similar offense
committed in this state which has been
redesignated from a former statute
number to one of those listed in this
subparagraph.

If the sexual offender meets the criteria in
subparagraph 1., the sexual offender may,
for the purpose of removing the requirement
for registration as a sexual offender, petition
the criminal division of the circuit court of
the circuit:
a.

Where the conviction or adjudication
occurred, for a conviction in this state;

App.56a

3.

b.

Where the sexual offender resides, for a
conviction of a violation of similar law
of another jurisdiction; or

c.

Where the sexual offender last resided,
for a sexual offender with a conviction
of a violation of similar law of another
jurisdiction who no longer resides in
this state.

The court may grant or deny relief if the
offender demonstrates to the court that he
or she has not been arrested for any crime
since release; the requested relief complies
with the federal Adam Walsh Child Protection
and Safety Act of 20061 and any other federal standards applicable to the removal
of registration requirements for a sexual
offender or required to be met as a condition
for the receipt of federal funds by the state;
and the court is otherwise satisfied that the
offender is not a current or potential threat
to public safety. The state attorney in the
circuit in which the petition is filed must be
given notice of the petition at least 3 weeks
before the hearing on the matter. The state
attorney may present evidence in opposition
to the requested relief or may otherwise
demonstrate the reasons why the petition
should be denied. If the court denies the
petition, the court may set a future date at
which the sexual offender may again petition
the court for relief, subject to the standards
for relief provided in this subsection.

1 See 42 U.S.C.A. § 16901 et seq.

App.57a
4.

The department shall remove an offender
from classification as a sexual offender for
purposes of registration if the offender provides to the department a certified copy of
the court’s written findings or order that
indicates that the offender is no longer required to comply with the requirements for
registration as a sexual offender.
(b) As defined in sub-subparagraph (1)(h)
1.b. must maintain registration with
the department for the duration of his
or her life until the person provides the
department with an order issued by the
court that designated the person as a
sexual predator, as a sexually violent
predator, or by another sexual offender
designation in the state or jurisdiction
in which the order was issued which
states that such designation has been
removed or demonstrates to the department that such designation, if not
imposed by a court, has been removed
by operation of law or court order in
the state or jurisdiction in which the
designation was made, and provided
such person no longer meets the criteria
for registration as a sexual offender
under the laws of this state.

(12) The Legislature finds that sexual offenders, especially those who have committed offenses against
minors, often pose a high risk of engaging in
sexual offenses even after being released from
incarceration or commitment and that protection
of the public from sexual offenders is a paramount

App.58a
government interest. Sexual offenders have a
reduced expectation of privacy because of the
public’s interest in public safety and in the effective operation of government. Releasing information concerning sexual offenders to law enforcement agencies and to persons who request such
information, and the release of such information
to the public by a law enforcement agency or
public agency, will further the governmental
interests of public safety. The designation of a
person as a sexual offender is not a sentence or a
punishment but is simply the status of the
offender which is the result of a conviction for
having committed certain crimes.
(13) Any person who has reason to believe that a
sexual offender is not complying, or has not
complied, with the requirements of this section and
who, with the intent to assist the sexual offender
in eluding a law enforcement agency that is
seeking to find the sexual offender to question
the sexual offender about, or to arrest the sexual
offender for, his or her noncompliance with the
requirements of this section:
(a) Withholds information from, or does not
notify, the law enforcement agency about
the sexual offender’s noncompliance with the
requirements of this section, and, if known,
the whereabouts of the sexual offender;
(b) Harbors, or attempts to harbor, or assists
another person in harboring or attempting
to harbor, the sexual offender; or

App.59a
(c) Conceals or attempts to conceal, or assists
another person in concealing or attempting
to conceal, the sexual offender; or
(d) Provides information to the law enforcement
agency regarding the sexual offender that
the person knows to be false information,
commits a felony of the third degree, punishable as provided in s. 775.082, s. 775.083, or
s. 775.084.
(14)
(a) A sexual offender must report in person each
year during the month of the sexual offender’s
birthday and during the sixth month following the sexual offender’s birth month to the
sheriff’s office in the county in which he or she
resides or is otherwise located to reregister.
(b) However, a sexual offender who is required
to register as a result of a conviction for:
1.

Section 787.01 or s. 787.02 where the
victim is a minor;

2.

Section 794.011, excluding s. 794.011(10);

3.

Section 800.04(4)(a)2. where the court
finds the offense involved a victim under
12 years of age or sexual activity by the
use of force or coercion;

4.

Section 800.04(5)(b);

5.

Section 800.04(5)(c)1. where the court
finds molestation involving unclothed
genitals or genital area;

6.

Section 800.04(5)(c)2. where the court
finds molestation involving the use of

App.60a
force or coercion and unclothed genitals
or genital area;
7.

Section 800.04(5)(d) where the court finds
the use of force or coercion and unclothed
genitals or genital area;

8.

Section 825.1025(2)(a);

9.

Any attempt or conspiracy to commit
such offense;

10. A violation of a similar law of another
jurisdiction; or
11. A violation of a similar offense committed
in this state which has been redesignated
from a former statute number to one of
those listed in this paragraph, must
reregister each year during the month
of the sexual offender’s birthday and
every third month thereafter.
(c)

The sheriff’s office may determine the appropriate times and days for reporting by the
sexual offender, which must be consistent
with the reporting requirements of this subsection. Reregistration must include any
changes to the following information:
1.

Name; social security number; age; race;
sex; date of birth; height; weight; tattoos
or other identifying marks; hair and
eye color; address of any permanent
residence and address of any current
temporary residence, within the state
or out of state, including a rural route
address and a post office box; if no
permanent or temporary address, any

App.61a
transient residence within the state;
address, location or description, and
dates of any current or known future
temporary residence within the state or
out of state; all electronic mail addresses
or Internet identifiers and each Internet
identifier’s corresponding website homepage or application software name; all
home telephone numbers and cellular
telephone numbers; employment information; the make, model, color, vehicle
identification number (VIN), and license
tag number of all vehicles owned;
fingerprints; palm prints; and photograph. A post office box may not be provided in lieu of a physical residential
address. The sexual offender shall also
produce his or her passport, if he or she
has a passport, and, if he or she is an
alien, shall produce or provide information about documents establishing his
or her immigration status. The sexual
offender shall also provide information
about any professional licenses he or
she has.
2.

If the sexual offender is enrolled or
employed, whether for compensation or
as a volunteer, at an institution of higher
education in this state, the sexual
offender shall also provide to the
department the name, address, and
county of each institution, including
each campus attended, and the sexual

App.62a
offender’s enrollment, volunteer, or
employment status.
3.

If the sexual offender’s place of residence
is a motor vehicle, trailer, mobile home,
or manufactured home, as defined in
chapter 320, the sexual offender shall
also provide the vehicle identification
number; the license tag number; the
registration number; and a description,
including color scheme, of the motor
vehicle, trailer, mobile home, or manufactured home. If the sexual offender’s
place of residence is a vessel, live-aboard
vessel, or houseboat, as defined in chapter 327, the sexual offender shall also
provide the hull identification number;
the manufacturer’s serial number; the
name of the vessel, live-aboard vessel,
or houseboat; the registration number;
and a description, including color scheme,
of the vessel, live-aboard vessel, or houseboat.

4.

Any sexual offender who fails to report in
person as required at the sheriff’s office,
who fails to respond to any address verification correspondence from the department within 3 weeks of the date of the
correspondence, who fails to report all
electronic mail addresses and all Internet
identifiers, and each Internet identifier’s
corresponding website homepage or
application software name, or who knowingly provides false registration information by act or omission commits a

App.63a
felony of the third degree, punishable as
provided in s. 775.082, s. 775.083, or s.
775.084.
(d) The sheriff’s office shall, within 2 working
days, electronically submit and update all
information provided by the sexual offender
to the department in a manner prescribed
by the department.
[***]
FLA § 943.0436
Duty of the court to uphold laws governing sexual
predators and sexual offenders.
(1) The Legislature finds that, for the purpose of
approving a plea agreement or for other reasons,
certain courts enter orders that effectively limit
or nullify requirements imposed upon sexual
predators and sexual offenders pursuant to the
laws of this state and prevent persons or entities
from carrying out the duties imposed, or exercising
the authority conferred, by such laws. The laws
relating to sexual predators and sexual offenders
are substantive law. Furthermore, the Congress
of the United States has expressly encouraged
every state to enact such laws, and has provided
that, to the extent that a state’s laws do not
meet certain federal requirements, the state will
lose significant federal funding provided to the
state for law enforcement and public safety
programs. Unless a court that enters such an
order determines that a person or entity is not
operating in accordance with the laws governing
sexual predators or sexual offenders, or that
such laws or any part of such laws are unconsti-

App.64a
tutional or unconstitutionally applied, the court
unlawfully encroaches on the Legislature’s
exclusive power to make laws and places at risk
significant public interests of the state.
(2) If a person meets the criteria in chapter 775 for
designation as a sexual predator or meets the
criteria in s. 943.0435, s. 944.606, s. 944.607, or
any other law for classification as a sexual
offender, the court may not enter an order, for
the purpose of approving a plea agreement or for
any other reason, which:
(a) Exempts a person who meets the criteria for
designation as a sexual predator or classification as a sexual offender from such
designation or classification, or exempts such
person from the requirements for registration
or community and public notification imposed
upon sexual predators and sexual offenders;
(b) Restricts the compiling, reporting, or release
of public records information that relates to
sexual predators or sexual offenders; or
(c)

Prevents any person or entity from performing
its duties or operating within its statutorily
conferred authority as such duty or authority
relates to sexual predators or sexual offenders.

(3) If the court enters an order that affects an
agency’s performance of a duty imposed under
the laws governing sexual predators or sexual
offenders, or that limits the agency’s exercise of
authority conferred under such laws, the Legislature strongly encourages the affected agency
to file a motion in the court that entered such
order. The affected agency may, within 1 year after

App.65a
the receipt of any such order, move to modify or
set aside the order or, if such order is in the
nature of an injunction, move to dissolve the
injunction. Grounds for granting any such motion
include, but need not be limited to:
(a) The affected agency was not properly noticed.
(b) The court is not authorized to enjoin the
operation of a statute that has been duly
adjudged constitutional and operative unless
the statute is illegally applied or unless the
statute or the challenged part of it is unconstitutional on adjudicated grounds.
(c)

Jurisdiction may not be conferred by consent
of the parties.

(d) To the extent that the order is based upon
actions the agency might take, the court’s
order is premature and, if and when such
actions are taken, these actions may be
challenged in appropriate proceedings to
determine their enforceability.
(e) The injunction affects the public interest and
would cause injury to the public.
(f)

The order creates an unenforceable, perpetual
injunction.

(g) The order seeks to restrict the agency in the
performance of its duties outside the court’s
territorial jurisdiction.
[***]

